                                     Closeout for M99110052

    On November 12, 1999, a complainant' called to allege that a PI2 had fraudulently elicited
    proprietary information from a collaborator' for the preparation of an NSF proposal4 which
    included a compensated role for the collaborator. NSF did elect to fund the PI'S proposal,
    but the collaborator learned from the PI that his participation would no longer be required
    or remunerated. As such, the complainant believed the PI had misappropriated the
    collaborator's material.

    An examination of the program documents revealed that the PI'S original proposal went
    through extensive revisions before it was awarded. Among these revisions was the removal
    of the component which featured the collaborator. The Program Direct02 for the award
    confirmed the accuracy of this interpretation. We concluded that the collaborator's
    elimination from the award was rooted in a programmatic decision, rather than any
    deception on the part of the PI.

    The complainant also expressed general concern regarding unauthorized use of the material
    the collaborator had provided to the PI. However, he was not cognizant of any evidence
    demonstrating such wrongdoing. The complainant indicated that the collaborator would be
    attempting to resolve this matter directlywith the PI.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




2
     Footnotes Redacted
4
5




                                          Page 1 of 1
